No. __________
IN THE

Supreme Court of the United States
UBER TECHNOLOGIES, INC. AND GEGEN LLC,
Petitioners,
v.
ALI RAZAK, KENAN SABANI, AND KHALDOUN
CHERDOUD,
individually and on behalf of all others similarly
situated,
Respondents.

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Petition for a Writ of Certiorari contains 7,645 words and complies with the
word limitation established by Rule 33.1(g)(i) of the Rules of this Court.
Dated: April 5, 2021
/s/ Theane D. Evangelis
Theane D. Evangelis

